              AUDIT OF THE
   OFFICE ON VIOLENCE AGAINST WOMEN
GRANT AWARDED TO THE SWINOMISH INDIANS
     OF THE SWINOMISH RESERVATION
         LA CONNER, WASHINGTON



         U.S. Department of Justice
       Office of the Inspector General
                Audit Division


        Audit Report GR-90-12-003
                July 2012
                   AUDIT OF THE
        OFFICE ON VIOLENCE AGAINST WOMEN
     GRANT AWARDED TO THE SWINOMISH INDIANS
          OF THE SWINOMISH RESERVATION
              LA CONNER, WASHINGTON

                             EXECUTIVE SUMMARY

      The U.S. Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of a $391,271 grant (2008-TW-AX-0003)
that the Office on Violence Against Women (OVW) awarded to the
Swinomish Indians of the Swinomish Reservation (Swinomish), located in
La Conner, Washington. The purpose of the grant was to fund the
development and maintenance of a domestic violence prevention program.
Specifically, the grant project included the establishment of an offender
intervention program, victim’s advocacy program, youth education program,
victim’s counseling services, and an emergency assistance program. The
ultimate goal of the grant was to alleviate the prevalence of domestic
violence on Swinomish’s tribal lands. According to a Swinomish official, it is
estimated that approximately 70 to 90 percent of Swinomish homes have
experienced domestic violence. As of February 9, 2012, Swinomish has
expended $341,876 (87 percent) of the grant award.

       OVW provides national leadership in reducing violence against women
through its implementation of the Violence Against Women Act. 1 Created in
1995, OVW administers financial and technical assistance to communities
across the country that are developing programs, policies, and practices
aimed at ending domestic violence, dating violence, sexual assault, and
stalking. By forging state, local, and tribal partnerships among police,
prosecutors, victim advocates, health care providers, faith leaders, and
others, the intent of OVW grant programs is to help provide victims with the
protection and services needed to pursue safe and healthy lives, while
simultaneously enabling communities to hold offenders accountable for their
violence.

      The OVW grant to Swinomish that we audited was awarded through
the Indian Tribal Government Program. This program was created in Fiscal
Year 2007 with the purpose to: (1) decrease the incidence of violent crimes
against Indian women; (2) to strengthen the capacity of Indian tribes to
exercise their sovereign authority to respond to violent crimes committed
against Indian women; and (3) to ensure that perpetrators of violent crimes

      1
          Pub. L. No 108-322 (1994).
committed against Indian women are held accountable for their criminal
behavior.

Audit Results

      The purpose of our audit was to determine whether costs claimed
under Grant 2008-TW-AX-0003 were allowable, reasonable, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant. The objective of our audit was to review
performance in the following areas: (1) internal control environment;
(2) drawdowns; (3) program income; (4) expenditures including payroll,
fringe benefits, indirect costs, and accountable property; (5) matching;
(6) budget management; (7) monitoring of sub-recipients and contractors;
(8) reporting; (9) award requirements; (10) program performance and
accomplishments; and (11) post end date activity. We determined that
program income, accountable property, matching, monitoring of sub-
recipients and contractors, and post end date activity were not applicable to
this grant.

      As a result of our audit, we found that Swinomish maintained a
financial management system that generally provided separate accounting
for grant-related activities. In addition, Swinomish submitted accurate
Progress Reports to OVW and it was on track in meeting its programmatic
goals. However, we also found the following exceptions:

      •   $6,881 of inadequately supported personnel expenditures that
          lacked complete timecards;

      •   $5,025 in unallowable expenditures that belonged to another grant
          program;

      •   $3,851 in unallowable indirect costs;

      •   $1,311 of inadequately supported travel expenditures;

      •   Swinomish failed to obtain OVW’s approval for $35,891 in budget
          and scope modifications;

      •   9 of the 11 financial reports submitted to OVW were inaccurate;
          and

      •   Swinomish did not comply with the grant’s requirement to submit
          an Equal Employment Opportunity plan or exemption form.


                                     - ii -
      As a result of our audit, we questioned $52,959 and made nine
recommendations to OVW. Our findings are discussed in detail in the
Findings and Recommendations section of the report. Our audit objective,
scope, and methodology are discussed in Appendix I.

      We discussed the results of our audit with Swinomish officials and
have included their comments in the report as applicable. In addition, we
requested from Swinomish and OVW written responses to a draft copy of our
audit report. We received those responses and they are found in
Appendices III and IV, respectively. Our analysis of those responses and the
status of the recommendations are found in Appendix V.




                                   - iii -
                               TABLE OF CONTENTS

INTRODUCTION .................................................................................1
       Background .................................................................................2
       OIG Audit Approach ......................................................................3

FINDINGS AND RECOMMENDATIONS.................................................4
       Internal Control Environment .........................................................4
       Drawdowns .................................................................................5
       Expenditures ...............................................................................6
       Budget and Management ............................................................10
       Reporting Requirements ..............................................................12
       Compliance with Additional Grant Requirements.............................15
       Program Performance and Accomplishments ..................................15
       Conclusion.................................................................................17
       Recommendations ......................................................................17


APPENDICES:
I.     OBJECTIVE, SCOPE, AND METHODOLOGY ................................19
II.    SCHEDULE OF DOLLAR-RELATED FINDINGS ............................21
III. AUDITEE RESPONSE ................................................................22
IV.    DEPARTMENT OF JUSTICE RESPONSE......................................26
V.     ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO CLOSE
        THE REPORT .........................................................................29
                   AUDIT OF THE
        OFFICE ON VIOLENCE AGAINST WOMEN
     GRANT AWARDED TO THE SWINOMISH INDIANS
          OF THE SWINOMISH RESERVATION
              LA CONNER, WASHINGTON

                                INTRODUCTION

       The U.S. Department of Justice Office of the Inspector General (OIG),
Audit Division, has completed an audit of a $391,271 grant
(2008-TW-AX-0003) that the Office on Violence Against Women (OVW)
awarded to the Swinomish Indians of the Swinomish Reservation
(Swinomish), located in La Conner, Washington. The purpose of the grant
was to fund the development and maintenance of a domestic violence
prevention program. Specifically, the grant project included the
establishment of an offender intervention program, victim’s advocacy
program, a youth education program, victim’s counseling services, and an
emergency assistance program. The ultimate goal of the grant was to
alleviate the prevalence of domestic violence on Swinomish’s tribal lands.
According to a Swinomish official, it is estimated that approximately 70 to
90 percent of Swinomish homes have experienced domestic violence. As of
February 9, 2012, Swinomish has expended $341,876 (87 percent) of the
grant award.

                             EXHIBIT 1
                  OVW GRANT AWARDED TO SWINOMISH
                            AWARD        AWARD     AWARD
                                                1
            GRANT AWARD   START DATE   END DATE    AMOUNT
          2008-TW-AX-0003  08/01/08     05/31/12  $ 391,271
                                                           Total    $391,271
         Source: OVW



      The purpose of our audit was to determine whether costs claimed
under Grant 2008-TW-AX-0003 were allowable, reasonable, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant. The objective of our audit was to review
performance in the following areas: (1) internal control environment;
(2) drawdowns; (3) program income; (4) expenditures including payroll,
fringe benefits, indirect costs, and accountable property; (5) matching;
(6) budget management; (7) monitoring of sub-recipients and contractors;

     1
         The Award End Date includes all time extensions that were approved by OVW.
(8) reporting; (9) award requirements; (10) program performance and
accomplishments; and (11) post end date activity. We determined that
program income, accountable property, matching, monitoring of sub-
recipients and contractors, and post end date activity were not applicable to
this grant.

Background

       The Swinomish Indians of the Swinomish Reservation is a federally
recognized Indian Tribe that occupies the Swinomish Indian Reservation
located in the northwestern part of the state of Washington, approximately
68 miles north of Seattle surrounded by Skagit County. The reservation was
established in 1855 on 15 square miles of the southeast peninsula of Fidalgo
Island. It is inhabited by 810 enrolled tribal members and 200 non-enrolled
tribal members. Swinomish currently operates a hotel, casino, gas station,
and a fishery. The Tribe’s main industry is seasonal salmon and crab fishing.

       OVW provides national leadership in reducing violence against women
through the implementation of the Violence Against Women Act. 2 Created in
1995, OVW administers financial and technical assistance to communities
across the country that are developing programs, policies, and practices
aimed at ending domestic violence, dating violence, sexual assault, and
stalking. By forging state, local, and tribal partnerships among police,
prosecutors, victim advocates, health care providers, faith leaders, and
others, the intent of OVW grant programs is to help provide victims with the
protection and services they need to pursue safe and healthy lives, while
simultaneously enabling communities to hold offenders accountable for their
violence.

      The OVW grant to Swinomish that we audited was awarded through
the Indian Tribal Government Program. This program was created in Fiscal
Year (FY) 2007 with the purpose to: (1) decrease the incidence of violent
crimes against Indian women; (2) to strengthen the capacity of Indian tribes
to exercise their sovereign authority to respond to violent crimes committed
against Indian women; and (3) to ensure that perpetrators of violent crimes
committed against Indian women are held accountable for their criminal
behavior.




      2
          Pub. L. No 108-322 (1994).



                                       -2-
OIG Audit Approach

      We tested Swinomish’s compliance with what we consider to be the
most important conditions of the grant award. Unless otherwise stated in
our report, the criteria we audited against are contained in the OJP Financial
Guide, award documents, Code of Federal Regulations (C.F.R.), and Office of
Management and Budget (OMB) Circulars. Specifically, we tested:

      •   Internal Control Environment – to determine whether the
          internal controls in place for the processing and payment of funds
          were adequate to safeguard the funds awarded to Swinomish and
          ensure compliance with the terms and conditions of the grant.

      •   Drawdowns – to determine whether drawdowns were adequately
          supported and if Swinomish was managing receipts in accordance
          with federal requirements.

      •   Expenditures – to determine whether costs charged to the grant,
          including payroll, fringe benefits, and indirect costs were accurate,
          adequately supported, allowable, reasonable, and allocable.

      •   Budget Management – to determine whether there were
          deviations between the amounts budgeted and the actual costs for
          each category.

      •   Reporting – to determine if the required financial, programmatic,
          reports were submitted in a timely manner and accurately reflected
          grant activity.

      •   Award Requirements – to determine whether Swinomish
          complied with award guidelines, special conditions, and solicitation
          criteria.

      •   Program Performance and Accomplishments – to determine
          whether Swinomish made a reasonable effort to accomplish stated
          objectives.

      The results of our audit are discussed in detail in the Findings and
Recommendations section of this report. We discussed the results of our
audit with Swinomish officials and have included their comments in the
report, as applicable. The audit objective, scope, and methodology are
discussed in Appendix I.




                                      -3-
                  FINDINGS AND RECOMMENDATIONS

           Overall, we found that Swinomish generally
           accounted for grant expenditures and maintained
           financial records. However, we found several
           unallowable expenditures for supplies and equipment
           totaling $5,025. These expenses pertained to
           another grant program and should not have been
           charged to this grant. In addition, we identified a
           $1,311 travel voucher that lacked a required
           signature. Further, Swinomish used the wrong
           indirect cost rate and overcharged the grant for
           indirect costs by $3,851. We found incomplete
           timecards for personnel hired with grant funds
           resulting in $6,881 of personnel costs being
           inadequately supported. Also, Swinomish failed to
           obtain OVW’s approval for $35,891 in budget and
           scope modifications. Nine of the 11 financial reports
           that Swinomish submitted were inaccurate. Lastly,
           Swinomish did not file an Equal Employment
           Opportunity Exemption and therefore did not comply
           with award requirements. In total, we questioned
           $52,959.

Internal Control Environment

      We reviewed Swinomish’s policies and procedures, Single Audit
Report, and financial management system to assess its risk of
noncompliance with laws, regulations, guidelines, and terms and conditions
of the grant. We also interviewed individuals from Swinomish’s grant
management, accounting, and finance staff regarding internal controls and
processes related to payroll, purchasing, and accounts payable functions.
Additionally, we observed the financial management system, as a whole, to
further assess risk.

Single Audit

      According to OMB Circular A-133, non-federal entities that expend
$500,000 or more in federal awards in a year shall have a Single Audit
conducted. We reviewed Swinomish’s most recent Single Audit for FY 2010,
which was issued July 28, 2011, and noted that the independent auditors
had issued a qualified opinion. Swinomish did not provide a blended
financial presentation of all of the Tribe’s operating units to its
independent auditor. Specifically, the financial presentation did not include


                                    -4-
information on the Tribe’s casino, fishery, hotel, and gas station. 3 Based on
our review of the underlying issues related to the qualified opinion, we
believe that the reasons for the qualified opinion were not related to the
Tribe’s administration of the OVW grant that we audited. Therefore, we did
not note it as an exception in this report.

Financial Management System

       The OJP Financial Guide requires that all grant fund recipients
“establish and maintain adequate accounting systems and financial records
to accurately account for funds awarded to them.” The OJP Financial Guide
additionally requires that the accounting system provide adequate
maintenance of financial data to enable planning, control, and measurement.
It also requires that grantees separately account for each award and not
commingle grant funds.

      Overall, we found that Swinomish adequately maintained grant-related
financial records and data in accordance with the OJP Financial Guide. Also,
Swinomish utilized an accounting system called Sage MIP Fund Accounting.
Based on our review of grant-related transactions that were recorded in
Sage MIP Fund Accounting, we generally found the system accurately
accounted for grant-related receipts and expenditures. Further, we found
that grant-related transactions (i.e., receipts and expenditures) were
separately tracked from all other funding, with one exception that we discuss
in the Expenditures section of this report. This exception related to $7,575
in expenditures that pertained to another grant but was erroneously posted
to the grant that we audited. We did not consider this error in posting to
represent an internal control weakness.

Drawdowns

      According to the OJP Financial Guide, grant recipients should request
funds based upon immediate disbursement and the timing of the drawdown
should be scheduled to ensure that federal cash-on-hand is the minimum
needed for disbursement within 10 days. According to Swinomish’s
Comptroller, drawdowns were made on a reimbursement bases based on the
information recorded in the grant-related general ledger.

     As seen in Exhibit 2, we tested five drawdowns by comparing the
drawdown amounts to the expenditures recorded in the general ledger.
We found that the Tribe drew down more than necessary on December 1,
2009, and February 1, 2010, but spent these funds within 10 days of

      3
          Swinomish’s fiscal year is from January 1 to December 31.


                                            -5-
the drawdown. Therefore, Swinomish was in compliance with the OJP
Financial Guide’s cash on hand requirements.

                                 EXHIBIT 2
                           DRAWDOWN HISTORY FOR
                           GRANT 2008-TW-AX-0003
                AMOUNT      CUMULATIVE       GRANT         CUMULATIVE     CUMULATIVE
   DATE OF       DRAWN      DRAWDOWNS EXPENDITURES EXPENDITURES           DIFFERENCES
  DRAWDOWN         ($)          ($)            ($)             ($)            ($)
   04/21/09    $      251     $      251      $     251       $     251      $       0
   12/01/09        44,397        44,648          44,323          44,574           (74)
   02/01/10        17,444        62,092          17,411          61,985         (107)
   05/03/10        16,136        78,228          17,644          79,629         1,401
   09/01/10        40,945       119,173          44,244         123,873         4,700
Source: OIG analysis of Swinomish’s drawdowns and general ledger

Expenditures

      We reviewed Swinomish’s grant-related general ledger and noted that
as of December 31, 2010, Swinomish had $131,594 of grant-related direct
cost expenditures. The expenditures comprised of payments made to
vendors for the purchase of supplies, reimbursements to Swinomish
employees for OVW-related travel, and employee’s salary compensation.
From the universe of 771 transactions, totaling $177,771, we selected and
tested a sample of 25 transactions. Thirteen of the sample transactions
were selected from the highest dollar amount and the remaining were
judgmentally selected. We reviewed supporting documentation, such as
purchase requisitions, purchase orders, receiving reports, invoices, and
photocopies of checks for each of the sampled transactions. In our review of
expenditures, we found some transactions that were unallowable and
unsupportable.

Unallowable Expenditures

      According to the OJP Financial Guide, “Recipients and sub-recipients
are prohibited from commingling funds on either a program-by-program or
project-by-project basis.” In reviewing the grant’s general ledger as of
May 24, 2011, we identified a total of $7,575 in expenditures that were
improperly charged to the grant. The transactions that we identified were
expenditures related to another OVW grant, in which the tribe was awarded
funds for the development of a domestic violence shelter. We discussed our
finding with Swinomish officials and learned that Swinomish’s employees had
sometimes identified the wrong grant program when processing
expenditures. Swinomish’s Program Director agreed that the expenditures
applicable to the domestic violence shelter were not related, and therefore


                                        -6-
unallowed under the scope of Grant 2008-TW-AX-0003. According to
Swinomish’s Comptroller, there were procedures that provided guidance to
Swinomish’s employees on how to properly record grant-related
transactions. Swinomish’s Comptroller stated that she would reverse the
unrelated transactions. In May 2011, the Comptroller recorded a $2,550
correcting journal entry for the portions of the unrelated expenditures.
However, as of February 2012, Swinomish did not correct the remaining
$5,025 in unrelated expenditures. Therefore we question $5,025 as
unallowable expenditures that were charged to Grant 2008-TW-AX-0003.
Also, we recommend that OVW ensure that Swinomish strengthens its
guidance to its employees on how to properly code and record expenditures
to the applicable grant program.

Unsupported Expenditures

       According to 28 C.F.R. Part 66, grantees must maintain records which
adequately identify the source and application of funds. In our testing of the
25 sampled transactions, 24 transactions were supported by purchase
requisitions, purchase orders, receiving reports, invoices, and photocopies of
checks. However, we noted that a $1,311 transaction representing payment
of a travel voucher for a Swinomish employee’s travel to an OVW-approved
and required training course lacked a required signature. Swinomish’s travel
protocol requires each travel voucher to have the employee’s signature. The
travel voucher in question included the supervisor’s signature, but it lacked
the employee’s signature. According to Swinomish’s Director of Social
Services, the employee is responsible for signing their travel vouchers.
Therefore, we question the $1,311 as being inadequately supported and we
recommend that OVW ensure that Swinomish establishes internal controls to
make certain that all necessary signatures are obtained before it makes
payment on any travel vouchers.

Personnel

      According to 2 C.F.R. Part 225, Cost Principles for State, Local, and
Indian Tribal Governments (formerly known as OMB Circular A-87):

            . . . where employees are expected to work solely on
            a single Federal award or cost objective, charges for
            their salaries and wages will be supported by
            periodic certifications that the employees worked
            solely on that program for the period covered by the
            certification. These certifications will be prepared at
            least semi-annually and will be signed by the



                                     -7-
            employee and supervisory official having first-hand
            knowledge of the work performed by the employee.

      Additionally, 2 C.F.R. 225 requires that the distribution of salaries and
wages of employees who work on multiple grants be supported by activity
reports to support billable grant-related hours. According to the OVW-
approved grant budget, Swinomish planned to pay $25,577 in salary
expense and $7,673 in fringe benefits for three grant-related tribal
employees.

       We tested the grant-related payroll expenditures to determine if these
expenditures were allowable, reasonable, and adequately supported.
Specifically, we selected a judgmental sample of two non-consecutive payroll
periods, which included the months of March and December 2010. We also
selected at least one payroll period for several personnel who were no longer
with the Tribe. In our review of timesheets for these months, we found:
that Swinomish employees did not maintain adequate supporting
documentation for about $6,881 worth of grant-related salaries, including
one timesheet that had a $100 mathematical error, and $637 in non-grant
related hours were charged to the OVW grant that we audited. Specifically,
when we reviewed the timesheets for Swinomish’s Mental Health Supervisor
and Family Service Coordinator, we discovered that actual grant-related
hours worked were not specified on a timesheet. Instead, a flat percentage
of the Mental Health Supervisor’s and Family Service Coordinator’s salaries
were allocated to the grant. Neither position worked exclusively on the OVW
grant that we audited. We asked Swinomish’s Social Services Program
Director why a flat percentage of his salary was allocated to the grant
instead of actual hours worked. He stated that grant-funded employees are
directed with dedicating a certain portion of their billable hours to grant-
related activities and those grant-funded employees are aware of how much
time they should devote to grant-related activities. In accordance with
2 C.F.R. Part 225, a distribution of salaries should be supported by
timesheets, therefore only actual hours worked on grant-related activities
supported by a timesheet should be charged to the grant. Regarding the
mathematical error, we noted in our examination of the employee’s
timesheet that the employee miscalculated the number of hours that she
had worked. In addition, in our review of timesheets for two employees, we
identified non-grant related hours totaling $637 that were charged to the
grant we audited. As a result, we questioned $6,881 of personnel expenses
as being inadequately supported. We did not question the $637 in
unallowable hours charged to the grant because of its de minimis nature.
We recommend that OVW remedy the questioned costs and ensure that
Swinomish implement controls to make sure that personnel expenditures are
accurate and adequately supported.


                                     -8-
Non-Supplanting Requirement

      According to the OJP Financial Guide, “federal funds must be used to
supplement existing funds for program activities and must not replace those
funds that have been appropriated for the same purpose.” In February
2008, Swinomish agreed to abide by the non-supplanting requirement when
the Director of Social Services signed a non-supplanting assurance. All of
the grant-related Swinomish employees were assigned to either its
Department of Social Services or Health Clinic. To test whether grant funds
were used by Swinomish to supplant local funding, we reviewed the annually
budgeted staffing levels for Swinomish’s Department of Social Services and
Health Clinic from January 2008 through July 2011 and we compared the
budgeted staffing levels to the actual headcount levels for the same time
frame. As a result, we found that Swinomish complied with the grant’s non-
supplanting requirement.

Indirect Costs

       According to the OJP Financial Guide “indirect costs are costs of an
organization that are not readily assignable to a particular project, but are
necessary to the operation of the organization and the performance of the
project.” According to Swinomish’s grant general ledger, the Tribe charged
indirect costs to the grant. According to the OVW-approved budget,
Swinomish was allowed to charge indirect costs to the grant. Swinomish’s
official approved indirect cost rate was approximately 34 percent for 2009
and approximately 32 percent for 2010. 4 We selected a judgmental sample
of 10 indirect cost charges that were recorded on the grant general ledger in
order to test the charges and determine if the indirect costs were allowable,
reasonable, and adequately supported. We found all of the sampled indirect
cost charges were adequately supported. However, Swinomish did not
charge the official approved indirect cost rate to the grant, but instead it
utilized a different, higher rate. As a result, Swinomish overcharged the
grant by $3,851 (see Exhibit 3).




       4
         Swinomish’s approved indirect cost rates were approved by its cognizant federal
agency, the Department of the Interior.


                                           -9-
                             EXHIBIT 3
         INDIRECT COSTS ALLOWED VS. INDIRECT COSTS CHARGED
                     FOR GRANT 2008-TW-AX-0003
                SWINOMISH-           OIG-
                DETERMINED        DETERMINED
                 BASIS FOR         BASIS FOR        INDIRECT    INDIRECT
               INDIRECT COST     INDIRECT COST       COST -      COST -
    DATE        CALCULATION       CALCULATION       ALLOWED     CHARGED    DIFFERENCE
 MAR 2009          $    1,055         $ 1,124         $ 383       $ 918      $    (535)
 JUL 2009               4,036             4,036        1,376       1,504          (128)
 AUG 2009               3,312             3,312        1,129       1,162           (33)
 OCT 2009               6,454             5,963        2,033       1,985             48
 NOV 2009               6,236             6,236        2,126       2,188           (62)
 DEC 2009               6,677             6,677        2,276       2,343           (67)
 MAR 2010               6,013             9,479        3,025       2,969             56
 JUL 2010              11,864            12,973        4,140       4,163           (23)
 SEP 2010               9,479            15,411        4,918       4,808            110
 DEC 2010              12,525            12,525        3,997       7,214        (3,217)
   TOTAL                                                                     $(3,851)
Source: OIG analysis of Swinomish’s indirect costs and general ledger

      We asked the Swinomish Comptroller about the discrepancy in the
amount of indirect cost that was charged to the grant. The Comptroller
explained that she utilized the rate that was listed on the OVW-approved
budget. The OVW-approved budget specified an indirect cost rate of
approximately 35 percent, which was higher than the official approved
indirect cost rate as established by Swinomish’s federal cognizant agency,
the Department of the Interior. However, even when we took into
consideration the rate shown on the OVW-approved budget, it still did not
account for the discrepancies between what was allowed and what was
charged to the grant. Further, according to the grant’s award requirements,
Swinomish was required to submit a Grant Adjustment Notice (GAN) to OVW
in order to update the indirect cost rate and make it comparable to the
indirect cost rate that was approved by the Department of the Interior. In
our review of OJP’s Grant Management Systems (GMS), as of February
2012, we did not find that Swinomish submitted to OVW a GAN requesting
its approval to utilize the Department of the Interior’s approved rate for the
OVW grant. Since a GAN was not obtained to approve the indirect cost rate
charged by Swinomish and Swinomish was not using its cognizant agency’s
approved indirect cost rate, we questioned $3,851 of unallowed indirect
costs expenditures.

Budget and Management

      According to the OJP Financial Guide, any budget modifications in
excess of 10 percent of the total grant award require a GAN as it is
considered to be a programmatic change. We reviewed the OVW approved


                                         - 10 -
budget and all GANs that OVW approved. The OVW-approved grant budget
included $203,333 primarily for consultant services such as the development
and maintenance of a domestic violence prevention program at Swinomish.
However, instead of acquiring contractors, Swinomish hired employees for
the following six positions: (1) Batter Intervention Program Counselor,
(2) Victim’s Counselor, (3) Victim’s Advocate, (4) Mental Health Supervisor,
(5) Family Services Coordinator, and (6) Domestic Violence Youth Education
Provider. We asked Swinomish officials why the additional positions were
hired as these positions were not part of the original budget that it
submitted to OVW for approval. Swinomish officials explained that it was
difficult for the Tribe to find contractors to provide the required services for
its domestic violence program. As a solution, Swinomish instead hired staff
members to fill the needed positions. Since these positions were already
listed in the contractor’s section of the OVW-approved budget, Swinomish
did not consider it necessary to notify OVW of this change and seek OVW’s
approval. Exhibit 4 compares Swinomish’s OVW-approved budget to its
actual expenditures as of January 31, 2011.

                                EXHIBIT 4
               BUDGET VS. ACTUAL EXPENDITURES BY CATEGORY
                       FOR GRANT 2008-TW-AX-0003
                                                  ACTUAL                           PERCENT
                                                  EXPENSE        OVER/UNDER        OFTOTAL
      COST CATEGORIES             BUDGET        (01/31/11)         BUDGET           (%)
 Personnel                        $ 25,577         $ 93,170       $    67,593          17.3
 Fringe Benefits                      7,673           13,859            6,186           1.6
 Travel                              16,841            7,403          (9,438)           2.4
 Equipment                                0                0                0           0.0
 Supplies                            13,413           14,652            1,239           0.3
 Contractual                        203,333            2,349        (200,984)          51.4
 Other                               22,800            2,378         (20,422)           5.2
   SUBTOTAL OF DIRECT             $289,637          $133,811
                                                                                          5
  INDIRECT                       101,634                                            N/A
     TOTAL                     $391,271
Source: OIG analysis of OVW and Swinomish records

       As shown in Exhibit 4, Swinomish overspent $75,018 in three budget
categories (personnel costs, fringe benefits, and supplies), exceeding the
total approved budget amount of $391,271 by 19 percent. Swinomish is
allowed to exceed the budgeted amounts up to a maximum of 10 percent
($39,127) without OVW approval. Changes exceeding 10 percent require


       5
         The OJP Financial Guide, which states the movement in dollars between budget
categories is allowed up to 10 percent of the total budget amount, does not apply to indirect
costs.


                                            - 11 -
OVW’s approval before the changes are implemented. Swinomish failed to
obtain pre-approval from OVW for its programmatic changes to its grant
project. We discussed our finding with Swinomish’s Program Director and he
stated that a GAN would be submitted to OVW. As of February 2012, a GAN
has not been submitted. We recommend that OVW remedy the $35,891 in
unallowable questioned costs.

Reporting Requirements

      According to OJP, award recipients were required to submit quarterly
Financial Status Reports (FSR) up until the end of FY 2009 and effective at
the start of FY 2010, the quarterly Federal Financial Report (FFR) replaced
the FSR. Award recipients are also required to submit semiannual Progress
Reports. These reports describe the status of the funds, compare actual
accomplishments to the objectives of the grant, and report other pertinent
information. We reviewed the FSRs and FFRs that Swinomish submitted to
OJP, and Progress Reports that Swinomish submitted to OVW in order to
determine whether each report was accurate and submitted in a timely
manner.

Financial Reports

       According to the OJP Financial Guide, FSRs were due 45 days after the
last day of each calendar quarter with the final FSR due 90 days after the
end of the grant period. Beginning on October 1, 2009, the FFR replaced the
FSR. FFRs are due 30 days after the end of each calendar quarter with the
final FFR due 90 days after the end of the grant period. We reviewed all of
the FSRs and FFRs that Swinomish submitted to determine if Swinomish
submitted these reports on time. As shown in Exhibit 5, we found that
Swinomish submitted one FSR 3 days late, one FFR 1 day late, and a
combination of nine FSRs and FFRs were submitted in a timely manner.
Given that only one FSR was submitted a total of 3 days late and one FFR
was submitted only 1 day late, we did not take exception to these two late
filings.




                                   - 12 -
                           EXHIBIT 5
 FINANCIAL STATUS REPORT AND FEDERAL FINANCIAL REPORT HISTORY
                    GRANT 2008-TW-AX-0003
  Report                                     Report          Date           Days
   No.           Reporting Period           Due Date      Submitted         Late
     1         07/01/08 to 09/30/08         11/14/08       11/17/08          3
     2         10/01/08 to 12/31/08         02/14/09       02/04/09          0
     3         01/01/09 to 03/31/09         05/15/09       05/14/09          0
     4         04/01/09 to 06/30/09         08/14/09       07/09/09          0
     5         07/01/09 to 09/30/09         11/14/09       10/22/09          0
     6         10/01/09 to 12/31/09         01/30/10       01/27/10          0
     7         01/01/10 to 03/31/10         04/30/10       04/19/10          0
     8         04/01/10 to 06/30/10         07/30/10       07/14/10          0
     9         07/01/10 to 09/30/10         10/30/10       10/27/10          0
    10         10/01/10 to 12/31/10         01/30/11       01/31/11          1
    11         01/01/11 to 03/31/11         04/30/11       04/18/11          0
Source: OIG analysis of FSRs and FFRs

       According to 28 C.F.R. § 66.20, grantees are required to disclose
accurate, current, and complete financial results for financially assisted
activities. We reviewed each FSR and FFR to determine whether the reports
contained accurate information related to actual expenditures for the award.
As shown in Exhibit 6, we compared the FSRs and FFRs to Swinomish’s
general ledger and we found the FSRs and FFRs to be generally inaccurate.

                           EXHIBIT 6
                   ACCURACY OF SWINOMISH’S
    FINANCIAL STATUS REPORTS AND FEDERAL FINANCIAL REPORTS
                    GRANT 2008-TW-AX-0003
                                                                      Difference
                                    Cumulative                      Between FSRs/
                                  Expenditures       Cumulative        FFRs and
 Report                            Reported on      Grant-Related     Accounting
  No.      Reporting Period          FSR/FFR        Expenditures       Records
    1     07/01/08 to 09/30/08         $         0      $       0         $        0
    2     10/01/08 to 12/31/08                251             251                  0
    3     01/01/09 to 03/31/09              3,535           3,604               (69)
    4     04/01/09 to 06/30/09            18,158           18,070                 88
    5     07/01/09 to 09/30/09            37,095           36,210                885
    6     10/01/09 to 12/31/09            62,977           61,601              1,376
    7     01/01/10 to 03/31/10            78,228           79,245            (1,017)
    8     04/01/10 to 06/30/10           103,145          106,566            (3,421)
    9     07/01/10 to 09/30/10           137,684          143,920            (6,236)
   10     10/01/10 to 12/31/10           177,771          177,532                239
   11     01/01/11 to 03/31/11           222,838          221,206              1,632
Source: OIG analysis of Swinomish’s accounting records




                                        - 13 -
       The financial reports were prepared by Swinomish’s Comptroller and
Senior Accountant. Swinomish officials who were responsible for the
preparation and submission of the FSRs and FFRs, told us that they utilized
the grant’s general ledger in preparing the financial reports and waited until
closing adjustments to the grant’s general ledger were made before
preparing the financial reports. However, we found that only two financial
reports were accurate, four reports overstated its cumulative expenditures,
and five reports understated its cumulative expenditures. Swinomish
officials could not explain what caused the differences. We recommend that
the OVW ensure that Swinomish prepares and submits accurate financial
reports.

Progress Reports

      According to the OJP Financial Guide, grantees are required to submit
program performance reports, or Progress Reports, twice a year. In
preparing the Progress Reports, the grantee is required to comment on its
success in performing grant-related activities and its progress in
accomplishing the grant objectives as stipulated in the grant application and
award documentation. These Progress Reports are due 30 days after the
reporting period. We reviewed the semi-annual Progress Reports to
determine if the reports were submitted in a timely manner and were
accurate.

                                 EXHIBIT 7
                          PROGRESS REPORT HISTORY
                           GRANT 2008-TW-AX-0003
    Report                                   Report       Date       Days
     No.         Reporting Period           Due Date   Submitted     Late
      1         07/01/08 - 12/31/08         01/30/09    02/04/09      5
      2         01/01/09 - 06/30/09         07/30/09    07/28/09      0
      3         07/01/09 - 12/31/09         01/30/10    01/12/10      0
      4         01/01/10 - 06/30/10         07/30/10    07/26/10      0
      5         07/01/10 - 12/31/10         01/30/11    02/03/11      4
   Source: OIG data analysis of OVW data

      As shown in Exhibit 7, Swinomish submitted three Progress Reports in
a timely manner and it submitted two Progress Reports between 4 to 5 days
late. Given that these Progress Reports were filed only 4 and 5 days late,
we did not take exception to these late filings. In addition, we reviewed the
information that Swinomish included in its 2010 Progress Reports and found
the information to be generally accurate.




                                       - 14 -
Compliance with Additional Grant Requirements

      We reviewed Swinomish’s compliance with additional grant
requirements, such as the grant program’s solicitation material and special
conditions included as part of the grant’s award documentation. We found
that Swinomish generally complied with the additional grant requirements,
except for one instance of non-compliance.

      According to the grant award documentation, Swinomish was required
to provide either an Equal Employment Opportunity plan or an exemption
form to OJP’s Office for Civil Rights (OCR). According to OCR and
Swinomish’s Human Resources Department, the Tribe did not submit an
approved Equal Employment Opportunity plan or an exemption form to OCR.
A Swinomish official from its Human Resources Department told us that the
Tribe had preferential hiring status. In August 2011, Swinomish provided us
with a copy of its Equal Employment Opportunity exemption form. However,
as of September 2011, OCR had not received the Tribe’s exemption form.
When we checked with OCR again in March 2012, OCR stated that it had not
yet received Swinomish’s Equal Employment Opportunity exemption form.
We recommend that OVW ensure that Swinomish complies with the award
requirement by providing to OCR either an approved Equal Employment
Opportunity plan or an exception form.

Program Performance and Accomplishments

      According to the grant application, the purpose of the grant was to
(1) establish an offender treatment program, referred to as a “batter”
treatment program; (2) establish victims’ counseling and emergency
assistance services; (3) create a community education program; and
(4) increase community responsiveness through training and a victim’s
advocate program. We interviewed Swinomish personnel, observed a youth
domestic violence afterschool program, reviewed 911 call statistics, and we
analyzed the grant’s approved timeline to assess program performance.

       We confirmed that Swinomish had a batter treatment program and it
was certified by the State of Washington, as required by the grant.
Likewise, we confirmed that Swinomish established a victim’s counselor
program as of February 2011. We also observed a youth domestic violence
afterschool program class and we noted that the class was operational as of
February 2011. Further, according to Swinomish’s Health Services
Coordinator, the Tribe disseminated information on domestic violence at a
Swinomish Health Fair and informational pamphlets were created and
distributed to Tribal members. In addition, Swinomish’s local tribal
publication, entitled the Kee Yoks, contained articles concerning domestic


                                   - 15 -
violence and information on how to obtain services for victims of domestic
violence. We also verified the existence of Swinomish victims advocate
program. We reviewed travel vouchers and training agendas to verify that
designated Swinomish personnel attended OVW’s mandatory training in this
subject area. Therefore, based on our review of available documents and
our observations, it appeared to us that Swinomish was accomplishing its
grant objectives.

Grant Application

      In our review of the pre-award process, we analyzed the grant
application and we attempted to validate the data reported to OVW. Given
that the grant for which Swinomish applied was a discretionary grant, it was
important that the Tribe provide to OVW accurate information in order to
enable OVW to make an accurate and proper decision on Swinomish’s grant
award. In Swinomish’s grant application, the Tribe stated that from 2003 to
2007 (a 5-year period) there were an estimated 532 domestic violence-
related 911 calls to the Swinomish Police Department. In OVW’s award
determination letter to Swinomish, OVW misstated that tribal authorities
responded to 532 domestic violence 911 calls for the past 4 years.
According to the Swinomish Police Department’s 911 dispatch statistics for
calendar years 2003 to 2010, the Swinomish Police Department responded
to 423 domestic violence-related 911 calls. Exhibit 8 provides a breakdown,
by calendar year, of the domestic violence-related calls to which the
Swinomish Police Department responded.

                               EXHIBIT 8
                  DOMESTIC VIOLENCE-RELATED 911 CALLS
                    FOR CALENDAR YEARS 2003 TO 2010
                         GRANT 2008-TW-AX-0003
                    2003   2004    2005   2006   2007      2008   2009   2010   Total
 Domestic Violence
                      46     49     52      77     60       58     37     44     423
 Related Calls
Source: OIG analysis of Swinomish Police Department data

       We compared the 911 call data we obtained from the Swinomish Police
Department to the information that the Tribe submitted as part of its grant
application. The 911 domestic violence call information in Swinomish’s grant
application was overstated by 248 calls for the period between 2003 and
2007. We asked Swinomish officials to explain the difference in 911 call
statistics. According to Swinomish officials, when a call is initially received
by the police department, the police records the call as either domestic
violence or some other category. However, after the police officers respond
to the call, Swinomish officials estimated that 50 percent or more of the


                                       - 16 -
“other” category calls should have been marked domestic violence.
However, there was no statistical information available for us to verify this
assertion. We recommend that OVW ensure Swinomish creates a policy to
include only verifiable, adequately supported data when preparing its grant
applications in order to provide OVW with accurate information that can be
relied upon when grant award decisions are made.

Conclusion

      Based on our audit, we found that Swinomish was accomplishing its
grant objectives. We observed that Swinomish maintained domestic
violence programs as planned in Swinomish’s grant application.

      However, we also found deficiencies in Swinomish’s administration of
the grant that it received from OVW. We noted that Swinomish had
unsupported and unallowable grant expenditures pertaining to indirect costs,
budget modifications, personnel costs, travel, and unrelated expenditures.
Specifically, Swinomish applied an incorrect indirect cost rate that differed
from the official rate that was approved by Swinomish’s cognizant federal
agency, resulting in $3,851 in unallowable expenditures. The OJP Financial
Guide requires award recipients to seek approval for budgetary changes in
excess of 10 percent of the total grant award, which Swinomish failed to do
for $35,891 in budgetary changes. In our testing, we found a travel voucher
that was not signed by the traveling employee, as required. In addition, we
found that Swinomish charged to the grant $5,025 in expenditures that
belonged to another, unrelated grant. Lastly, Swinomish submitted
inaccurate financial reports and we found no evidence that Swinomish
submitted an Equal Employment Opportunity exemption form, as required.
As a result, we questioned $52,959 and made 9 recommendations to OVW
to ensure appropriate corrective action is taken on our findings.

Recommendations

      We recommend that OVW:

      1.   Remedy $5,025 questioned costs related to unallowable grant
           expenditures that were unrelated to the grant we audited.

      2.   Ensure that Swinomish provides enhanced guidance to its
           employees on how to properly code and record expenditures to
           applicable grant programs.

      3.   Remedy $1,311 questioned costs related to a travel voucher
           lacking an employee’s signature.


                                    - 17 -
4.   Remedy $6,881 of inadequately supported payroll expenditures
     for grant-funded personnel.

5.   Remedy $3,851 in unallowed indirect cost expenditures.

6.   Remedy $35,891 in unallowable costs related to improper budget
     and scope modifications.

7.   Ensure that Swinomish establishes internal controls that make
     certain that it submits to OVW accurate financial reports.

8.   Ensure that Swinomish complies with its award requirement by
     providing to OCR either an approved Equal Employment
     Opportunity plan or an exception form.

9.   Ensure that Swinomish creates a policy to include only verifiable,
     adequately supported data when preparing its grant applications
     in order to provide OVW with accurate information that can be
     relied upon when grant award decisions are made.




                              - 18 -
                                                              APPENDIX I

            OBJECTIVE, SCOPE, AND METHODOLOGY
      The purpose of our audit was to determine whether costs claimed
under Grant 2008-TW-AX-0003 were allowable, reasonable, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant. The objective of our audit was to review
performance in the following areas: (1) internal control environment;
(2) drawdowns; (3) program income; (4) expenditures including payroll,
fringe benefits, indirect costs, and accountable property; (5) matching;
(6) budget management; (7) monitoring of sub-recipients and contractors;
(8) reporting; (9) award requirements; (10) program performance and
accomplishments; and (11) post end date activity. We determined that
program income, accountable property, matching, monitoring of sub-
recipients and contractors, and post end date activity were not applicable to
this grant.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

       Unless otherwise specified, our audit covered, but was not limited to,
activities that occurred between the start of Grant 2008-TW-AX-0003 in
August 2008 through May 2011. Further, the criteria we audited against are
contained in the OJP Financial Guide, Code of Federal Regulation, OMB
Circulars and specific program guidance, such as award documents.

      In conducting our audit, we performed sample testing in four areas,
which included: grant expenditures, personnel costs, financial reports, and
progress reports. In this effort, we employed a judgmental sampling design
to obtain broad exposure to numerous facets of the grant we reviewed, such
as dollar amounts or expenditure categories. We reviewed a judgmentally
selected sample of transactions that were recorded in Swinomish’s grant
related accounting records as of May 2011. This included 25 expenditures
related to Grant 2008-TW-AX-0003. Additionally, we judgmental sampled
two non-consecutive payroll periods. Further, we tested 2 Progress Reports,
5 FSRs, 6 FFRs, 10 indirect cost expenditures, and 5 drawdowns.




                                    - 19 -
      We did not test internal controls for Swinomish taken as a whole or
specifically for the grant program administered by Swinomish. An
independent Certified Public Accountant conducted an audit of Swinomish's
financial statements. The results of this audit were reported in the Single
Audit Report that accompanied the Independent Auditors’ Report for the
year ending 2010. The Single Audit Report was prepared under the
provisions of OMB Circular A-133. We reviewed the independent auditor’s
assessment to identify control weaknesses and significant noncompliance
issues related to Swinomish or the federal programs it was administering,
and assessed the risks of those findings on our audit.

       In addition, we reviewed the timeliness and accuracy of FSRs, FFRs,
Progress Reports, and evaluated performance to grant objectives. However,
we did not test the reliability of the financial management system as a
whole, nor did we place reliance on computerized data or systems in
determining whether the transactions we tested were allowable, supported,
and in accordance with applicable laws, regulations, and guidelines. We also
performed limited testing of information obtained from OJP’s GMS and found
no discrepancies. We thus have reasonable confidence in the GMS data for
the purposes of our audit. However, the OIG has not performed tests of the
GMS system specifically, and we therefore cannot definitively attest to the
reliability of GMS data.




                                   - 20 -
                                                                      APPENDIX II

            SCHEDULE OF DOLLAR-RELATED FINDINGS

QUESTIONED COSTS:                                           AMOUNT ($) PAGE

Unsupported Costs

   Inadequately supported travel expenditures                 $      1,311        7
   Inadequately supported personnel                                               8
                                                                     6,881
      expenditures

Subtotal of Unsupported Costs                                 $      8,192

Unallowable Costs

   Program Scope Alterations                                  $     35,891       12
   Grant Program commingled expenditures                             5,025        7
   Indirect costs expenditures                                       3,851       10

Subtotal of Unallowable Costs                                 $     44,767


TOTAL QUESTIONED COSTS                                       $     52,959

TOTAL DOLLAR RELATED FINDINGS                                $     52,959




Questioned Costs are expenditures that do not comply with legal, regulatory, or contractual
requirements, or are not supported by adequate documentation at the time of the audit, or
are unnecessary or unreasonable. Questioned costs may be remedied by offset, waiver,
recovery of funds, or the provision of supporting documentation.




                                         - 21 -
                                                                                                            APPENDIX III


                      AUDITEE RESPONSE


                                                                                                        Phone (360 ) 466-3163
                                                                                                          Fax (360) 466-5309



                  SwiI10IT/isI11I1dlal1 Cfribal COIT/IT/Ul1ity
                                  A ~..   In',.)' R.,r;c;oI""onl l,.Ii:., It_,... 01i~· "'ti P"''''~·11o> ;~V.S.~.   § ~7fj
                                                            11,(04 Moorage Way
                                                      laC(mner, Wa sh 119 101'1 98?57"'{)1:I1 7




May 15"', 2012


David J Gaschke
Regional Audit Manager
San Francisco Regional Office
1200 Baytlill Drive , Suite 201
San Bruno, CA 94066

Dear Mr. Gaschke:

Following is our written response to the Department of Justice's Draft Audit Report on
the audit of the Office on Violence Against Women (OIJlN) grant awarded to the
Swinomish Indian Tribal Community,

The following recommendations were made, and addressed by the Swinomish Indian
Tribal Community.

   1. Recommendation: Remedy $5,025 questioned costs related to unallowable
      grant expenditures that were unrelated to the grant we audited.

           •   These costs were understood to be allowable by the Swinomish Tribe
               under the 10% transfer rule. GAN #306391 has been submitted to
               amend the original budget to include supply costs.

   2. Recommendation: Ensure that Swinomish provides enhanced guidance to its
      employees on how to prope rty code and record expenditures to applicable grant
      programs.

           •   The Swinomish tribe agrees with this recommendation. The Tribe
               distributes current conlract Listings to all direclors and program managers
               to assist in account coding and funding descriptions. Account codes are
               reviewed by accounting personnel prior to expense disbursement.

           •   Items sampled and determined unallowable by the Department of Justice
               in the amoun t of $5,025 were understood to be allowable under the 10%
               transfer rule ,




                                                - 22 ­
3. Recommendation: Remedy $1,311 questioned costs related to a travel voucher
   lacking an employee's signature.

      •   The Swinomish Tribe agrees with this recommendation and the
          questioned cost has been remedied. The Swinomish Tribe contacted the
          employee who promplly signed the original travel expense report.


4. Recommendation: Remedy $6,881 of inadequately supported payroll
   expenditures for grant-funded personnel.

      •   The Swinomish Tribe agrees with this recommendation but offers the
          follow justification of grant funds used for personnel costs.

      •   Response to $100 mathematical error: The Swinomish Tribe has
          updated its time and effort reporting and has standardized electronic
          timesheets for time keeping. Eliminating mathematical errors and
          allowing for daily time and effort reports to be produced.

      •   Response to $637 of Non-grant related hours: All tribal employees have
          Personnel Action Forms on file with the Human Resources Department
          authorizing their fund source. The sampled employees have Personnel
          Action Forms on file and were authorized to work solely on the OVVV
          grant.

      •   Response to $5,370 of unsupported salaries: Both the Mental Health
          Supervisor and the Family Services Coordinator address various issues
          surrounding domestic violence daily. A large portion of the services they
          provide are related to Domestic Violence. Their cost objectives overtap
          by providing mental health services and family services to victims of
          domestic violence. DOJ funding only provides for a small portion of the
          time spent by the Mental Health Supervisor and the Family Services
          Coordinator on domestic violence related cases.

      •   Currenlly, the Comptroller reviews all timesheets for completeness and
          accuracy before salary and fringe costs are allocated to various funds .




                                  - 23 ­
5. Recommendation: Remedy $3,855 in unallowed indirect cost expenditures.

         •   T he Swinomish Tribe agrees with this recommendation but had already
             remedied the unallowed expendi ture during the DOJ site visi t in May
             2011.

         •   Monthly indirect expenses allocated to the grant program do not exceed
             the Swinomish Tribes official approved indirect cost rate established by
             the Department of Interior. Below is a summary of direct and indirect
             costs charged to the grant:


DOIIDC
                           Oirect       Actual     Maximum
Approved       ",to                                             Variance
                           Costs      IDCBilled    '"lowed
 Rates

  2008        45.34%
                        250.75                    113.69      (113.69)
  2009        34.09%
                        45,221.73    16,128.64    15,416.09   712.55
  2010        31.91 %
                        85,882.82    30.047.95    27,405.21   2.642.74
  2011        33.45%
                        112,449.74   34,372.83    37,614.44   j3.241.61)
TOTAL
COSTS                   243,805.04   80.549.42    80,549.42   (0.00)



6. Recommendation: Remedy $35,891 in unallowable costs related to improper
    budget and scope modifications.

         •   The Swinomish Tribe agrees with this recommendation and has
             submitted GAN #306391 that includes these salary I employee costs as
             part of a salary line item rather than contractual.

7. Recommendation: Ensure that Swinomish establishes internal controls that
   make certain that it submits to OVW accurate financial reports

         •   T he Swinomish Tribe has grant reporting procedures to reconcile general
             ledger balances to monthly reporting.

         •   T he Swinomish Tribe submitted accurate financial records based on
             current general ledger data. Financial reports are due to the DOJ 30
             days after the period close, but encumbrances are required to be
             liquidated within 60 days, according to tribal policy. This caused
             discrepancies between financial reports submitted and ending general
             ledger balances.




                                     - 24 ­
   8. Recommendation: Ensure that Swinomish complies with its award requirement
      by providing to OCR either an approved Equal Employment Opportunity plan or
      an exception form .

             •   The Swinomish Tribe agrees with this recommendation and the request
                 has been submitted to the OCR. A copy of the Certification form is
                 included with this response.

   9. Recommendation: Ensure that Swinomish creates a policy to include only
      verifiable, adequately supported data when preparing its grant applications in
      order to provide OVW with accurate information that can be relied upon when
      grant award decisions are made.

             •   The Swinomish Tribe agrees with this recommendation. Our guidance on
                 submitting the original application was to form our best educated
                 estimates as recommended by Department of Justice program personnel.
                 For the original application the tribe had no infrastructure capacity for data
                 gathering and monitoring domestic violence. The tribe now has the
                 capacity to ensure accurate data collection and has infrastructure in place
                 to gather needed information.



If you have any questions concerning this response , please contact Dawn Fidler,
Comptroller at (360) 466-7366 or by email atdfidler@swinomish.nsn.us.



Sincerely,




Merril Burke
Tribal CFO




                                          - 25 ­
                                                                                           APPENDIX IV


        DEPARTMENT OF JUSTICE RESPONSE


                                                   u.s. Department of Justice

                                                   Office on Violence Aga inst Women




                                                   li-~lfhillgl()n.   D .C. 20530


                                                                                    May 18, 2012


MEMORANDUM


TO:                  David Gaschke
                     Regional Audit Manager
                     San Francisco Regional Audit Office

FROM:                Bea Hanson ~       J.1.--
                     Acting Director If ~
                                        Ii
                     Office on Violence Against Women

                     Rodney Samuels
                     Audit Liaison
                     Office on Violence Against Women

SUBJECT:             Audit of the Office on Violence Against Women Grant Awarded to the
                     Swinomish Indians of the Swinomish Reservation
                     La Conner, Washington - Draft Audit Report


This memorandum is in response to your correspondence dated April 13,2012 transmitting the
above draft audit report for Swinomish Indians of the Swinomish Reservation. We consider the
subject report resolved and request written acceptance of this action from your office.

The report contains nine recommendations which include $8192.00 in unsupported costs and
$44,771 in unallowable costs. The Office on Violence Against Women (OVW) agrees with the
recommendations and is committed to working wi th the grantee to address each item and bring
them to a close as quickl y as possible. The following is an analysis of the audit
recommendations:




                                           - 26 ­
1.   Remedy $5,025 in questioned costs related to unallowable grant expenditures
     that were unrelated to the grant we audited.

     We agree with this recommendation. We will coordinate with Swinomish to ensure
     that they remedy the $5,025 in questioned costs related to unallowable grant
     expenditures that were unrelated to the grant you audited.

2.   Ensure that Swinomish provides enhanced guidance to its employees on how to
     properly code and record expenditures to applicable grant programs.

     We agree with this recommendation. We wi ll coordinate with Swinomish to ensure
     that they provide enhanced guidance to its employees on how to properly code and
     record expenditures to applicable grant programs.

3.   Remedy $1,311 in questioned costs rela ted to a travel voucher lacking an
     employee's signature.

     We agree with thi s recommendation. We wi ll coordinate with Swinomish to remedy
     $1,3 11 in questioned costs related to a travel voucher lacking an employee' s
     signature.

4.   Remedy the $6,881 of inadequately supported payroll expenditures for grant­
     funded personnel.

     We agree with this recommendation. We will coordinate with Swinomish to remedy
     the $6,88 1 of inadequately supported payroll expenditures for grant-funded
     perso nnel.

S.   Remedy $3,855 in unallowed indirect cost expenditures.

     We agree with this recommendation. We wi ll coordinate with Swinomish to remedy
     $3,855 in unallowed indirect cost expenditures.


6.   Remedy $35,89 1 in unallowable costs related to imp roper budget and scope
     modifications.

     We agree wi th this recommendation. We wi ll coordinate with Swinomish to remedy
     $35,891 in unallowable costs related to improper budget and scope modifications.

7.   E n sure that Swinomish establishes internal controls that make certain that it
     submits to OVW accurate financial reports.

     We agree with this recommendation. We will coordinate with Swinornish to ensure
     that Swinomish establ ishes internal controls that make certain that it submits to
     OVW accurate financial reports.



                                        2




                                     - 27 ­
      8.      Ensure that Swinomish complies with its award requirem ent by providing to
              O C R either a n a pproved E qu al E mployment OPPol"tunity plan or an exception
              form.

              We agree with this recommendation. We will coordinate with Swinomish to ensure
              that they comply w ith its award requirement by providing to the Office of Civil
              Rights (OCR) either an approved Equal Employment Opportunity plan or an
              exception form.


      9.      E ns ure that Swinornis h creates a policy to include only verifiable, a dequ ately
              supported data wh en preparing its gra nt applications in order tu provide OVW
              with accurate information th at ca n be relied upon when grant award decisions
              are m ad e.

              We agree with this recommendation. We will coordinate w ith Swinomish to ensure
              that they create a policy to incl ude only verifiable, adequately supported data when
              preparing its grant applications in order to provide OVW with accurate information
              that can be relied upon when grant award decisions are made.



We appreciate the opportunity to review and comment on the draft report. We will continue to
work with Swinomish, Inc. to address the recommendations. Uyou have any questions or
require additiona1 infonnation, please contact Rodney Samuels of my staff at:
(202) 514-9820.

cc:        Louise M. DuHamel
           Acting Assistant Director
           Audit Liaison Group
           Justice Management Division

           Angela Wood
           Budget Officer
           Office on Violence Against Women

           Beverly Fletcher
           Program SpeciaJ ist
           Office on V iolence Against Women




                                                   3




                                                - 28 ­
                                                             APPENDIX V

              OFFICE OF THE INSPECTOR GENERAL
             ANALYSIS AND SUMMARY OF ACTIONS
               NECESSARY TO CLOSE THE REPORT

      The OIG provided a draft copy of this audit report to the Swinomish
and OVW. Individual responses from the Swinomish and OVW are found in
Appendices III and IV, respectively. The following provides the OIG analysis
of the responses and summary of actions necessary to close the report.

Recommendation Number:

1.   Resolved. OVW concurred with our recommendation to remedy the
     $5,025 in questioned costs related to unallowable grant expenditures
     that were unrelated to the grant that we audited. OVW stated that it
     would ensure that the $5,025 in questioned costs would be remedied.
     Swinomish stated in its response that it understood these expenditures
     to be allowable based on the 10 percent budgetary transfer rule.
     However, as we explain in our report, the expenditures were unrelated
     to the grant’s objectives and primary activities; therefore, we
     questioned the expenditures as being unallowable. Swinomish
     submitted a Grant Adjustment Notice (GAN) in May 2012 in order to
     seek approval to add the questioned costs to the grant budget. As of
     July 11, 2012, the GAN had not been approved.

     This recommendation can be closed when we receive OVW’s plan for
     how it will remedy the $5,025 in questioned costs. Based on OVW’s
     plan, we will require evidence that adequate corrective actions have
     been implemented.

2.   Resolved. OVW and Swinomish concurred with our recommendation to
     ensure that Swinomish provides enhanced guidance to its employees on
     how to properly code and record expenditures to applicable grant
     programs. OVW stated that it would ensure that Swinomish provides
     enhanced guidance to Swinomish employees on how to properly code
     and record grant-related expenditures to the proper grant program.
     Swinomish stated in its response that it distributes current contract
     listings to all directors and program managers to assist in account
     coding and funding descriptions. Swinomish accounting personnel
     review account codes before making disbursements.




                                    - 29 -
     This recommendation can be closed when we receive a copy of the
     enhanced guidance that Swinomish provided to its employees on how to
     properly code and record expenditures to applicable grant programs.
     Also, we request Swinomish’s written procedures for distributing
     contract listings to all directors and program managers as well as
     procedures to its accounting personnel on reviewing account codes
     before expenses are disbursed.

3.   Resolved. OVW and Swinomish concurred with our recommendation to
     remedy the $1,311 questioned costs related to a travel voucher lacking
     an employee’s signature. OVW stated that it would coordinate with
     Swinomish to remedy the $1,311 in questioned costs. Swinomish
     stated in its response that it contacted its employee who promptly
     signed the original travel expense report, suggesting that it has
     remedied the questioned cost. On May 14, 2012, Swinomish separately
     provided to us a copy of the travel voucher in question with the
     signature of the employee.

     This recommendation can be closed when we receive OVW’s plan for
     how it will remedy the $1,311 in questioned costs. Based on OVW’s
     plan, we may require additional evidence that adequate corrective
     actions have been implemented.

4.   Resolved. OVW and Swinomish concurred with our recommendation to
     remedy $6,881 of inadequately supported personnel expenditures for
     grant-funded personnel. OVW stated that it would coordinate with
     Swinomish to remedy the $6,881 in questioned costs.

     Swinomish offered in its response justifications for its use of grant funds
     for personnel costs. Regarding the $100 mathematical error that we
     identified, Swinomish stated that it updated its time and effort reporting
     and standardized its electronic timesheets. These changes will eliminate
     mathematical errors and allow for daily time and effort reports to be
     produced. Regarding the $637 in non-grant related hours, Swinomish
     stated that all tribal employees have Personnel Action Forms on file with
     its Human Resources Department authorizing them to work solely on
     the OVW grant. However, the $637 amount was not calculated in the
     summation of unsupported expenditures of $6,881 due to its de minimis
     nature as we state in the report. In addition, the $637 of non-grant
     related hours were attributable to two former employees who had been
     funded by multiple grants. Of the $6,881, we questioned $1,565 of
     unsupported personnel expenditures relating to the Mental Health
     Supervisor’s and Family Services Coordinator’s timesheets and $5,316
     relating to other grant-related personnel’s unsupported timesheets.


                                     - 30 -
     Swinomish stated in its responses, the both the Mental Health
     Supervisor and Family Service Coordinator address domestic violence as
     an overlapping issue and Department of Justice funding only provides
     for a small portion of the time spent by the Mental Health Supervisor
     and Family Services Coordinator on domestic violence related cases.
     While we agree that the duties of Mental Health Supervisors and Family
     Services Coordinator’s duties may overlap with issues of domestic
     violence, it is our belief that in accordance with 28 C.F.R. 225 a
     distribution of salaries should be supported by timesheets, therefore,
     actual grant activity hours should be charged to the grant.

     This recommendation can be closed when we receive OVW’s plan for
     how it will remedy the $6,881 in questioned costs. Based on OVW’s
     plan, we will require evidence that adequate corrective actions have
     been implemented.

5.   Closed. OVW and Swinomish concurred with our recommendation to
     remedy $3,851 in unallowed indirect cost expenditures. OVW stated
     that it will coordinate with Swinomish to remedy the $3,851 in
     questioned costs. Swinomish stated in its response that that monthly
     indirect expenses allocated to the grant program do not exceed
     Swinomish’s official approved indirect cost rate established by the
     Department of the Interior. Swinomish also provided a table with
     calculations showing a variance of the actual indirect cost billed and
     maximum amount allowed by year. Swinomish’s financial reports
     reflected the approved indirect cost rate. After we discussed the audit
     finding with Swinomish during the course of our fieldwork, Swinomish
     stated that it remedied the unallowable expenditure.

     Based on our review of the direct and indirect costs charged to the grant
     and the grant’s general ledger, we have determined that the evidence
     provided adequately addresses our recommendation. Therefore, this
     recommendation is closed.

6.   Resolved. OVW and Swinomish concurred with our recommendation to
     remedy $35,891 in unallowable costs related to improper budget and
     scope modifications. OVW stated that it will coordinate with Swinomish
     to remedy the $35,891 in questioned costs. Swinomish stated in its
     response that it has submitted a GAN to include personnel expenditures
     as an increased budgetary category rather than have it be reflected in
     the contract category. As of July 11, 2012, the GAN had not been
     approved.




                                    - 31 -
     This recommendation can be closed when we receive OVW’s plan for
     how it will remedy the $35,891 in questioned costs. Based on OVW’s
     plan, we will require evidence that adequate corrective actions have
     been implemented.

7.   Resolved. OVW concurred with our recommendation that Swinomish
     establish internal controls that make certain that it submits to OVW
     accurate financial reports. OVW stated that it will coordinate with
     Swinomish to ensure that Swinomish establishes the recommended
     internal controls. In its response, Swinomish did not explicitly agree
     with our recommendation but instead stated that it has grant reporting
     procedures to reconcile general ledger balances to monthly reporting.
     Swinomish further stated that it submitted accurate financial records
     based on current general ledger data. Yet, Swinomish also explained
     that discrepancies between the financial reports it submitted and its
     ending general ledger balances were the result of a timing difference
     between encumbrances being liquidated within 60 days according to
     tribal policy and financial reports being submitted to the Department of
     Justice within 30 days after a period closes.

     Based on our audit work, we cannot confirm Swinomish’s statement that
     it submitted accurate financial reports. As we describe in our report and
     illustrate in Exhibit 6, we compared grant expenditures as reported on
     Swinomish’s financial reports that it submitted to Swinomish’s general
     ledger and we found a number of discrepancies. We were not provided
     the grant-reporting procedures and internal tribal policy that Swinomish
     referenced in its response; therefore, we did not assess the adequacy of
     those procedures and policy. Swinomish stated in its response that
     those procedures and policy resulted in discrepancies between its
     general ledger balances and financial reports. However, according to
     the OJP Financial Guide, grant recipients must ensure compliance with
     grant terms, including maintaining adequate support of data reported on
     its financial reports. Because Swinomish could not provide adequate
     support for its financial reports, we recommended that OVW ensure
     Swinomish establishes internal controls that would make certain that it
     submits accurate financial reports.

     This recommendation can be closed when we receive evidence that
     Swinomish established internal controls to ensure that it submits to
     OVW accurate financial reports. Also, we request that a copy of
     Swinomish’s grant-reporting procedures be provided to us.

8.   Resolved. OVW and Swinomish concurred with our recommendation to
     ensure that Swinomish comply with its award requirement by providing


                                    - 32 -
     to OCR either an approved Equal Employment Opportunity plan or an
     exemption form. OVW stated that it will coordinate with Swinomish to
     ensure Swinomish complies with the award requirement related to equal
     employment opportunities. Swinomish provided a copy of the
     Certification Form that Swinomish stated it had submitted to OCR
     claiming an exemption from the Equal Employment Opportunity plan
     requirement based on Swinomish being an Indian Tribe. However, we
     did not see any evidence that the Certification Form was submitted to
     OCR.

     This recommendation can be closed when we receive evidence that
     Swinomish has submitted its exemption form to OCR.

9.   Resolved. OVW and Swinomish concurred with our recommendation to
     ensure that Swinomish creates a policy to include only verifiable,
     adequately supported data when preparing its grant applications in
     order to provide OVW with accurate information that can be relied upon
     when grant award decisions are made. OVW stated that it will
     coordinate with Swinomish to ensure that Swinomish creates a policy to
     address our recommendation. Swinomish stated in its response that its
     guidance on submitting the original application was to form its best
     educated estimates as recommended by Department of Justice program
     personnel. Swinomish further described that when it prepared the
     original application it had no infrastructure capacity for data gathering
     and monitoring domestic violence. However, Swinomish now has the
     infrastructure and capacity to ensure needed information is gathered
     and that the data that is collected is accurate.

     This recommendation can be closed when we obtain Swinomish’s policy
     that will ensure only verifiable, adequately supported data is included in
     future grant applications that are submitted to OVW.




                                     - 33 -
